         Amtrak                       Office of
                                      Inspector General
                                              www.amtrakoig.gov




Semiannual Report
to the United States Congress
     Report No. 44   April 1–September 30, 2011
2   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
Table of Contents


From the Inspector General 	                                                                3

OIG Profile 	                                                                               7

Amtrak Profile	                                                                           11

Significant Activities: Actions Underway to Strengthen OIG Operations	                    13

Significant Activities: Audits	                                                           19

Significant Activities: Inspections and Evaluations	                                      31

Significant Activities: Investigations 	                                                  35

Performance Measures	                                                                     39

Appendixes 	                                                                              41

Reporting Requirements 	                                                                  49




       Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   1
                                                                                    Illinois Zephyr, Hinsdale, IL




2   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                   From the Inspector General




                          National Railroad Passenger Corporation
                                Office of Inspector General




I am pleased to submit the Amtrak Office of Inspector General (OIG) Semiannual Report to Congress
for the six months ending September 30, 2011. It discusses significant OIG accomplishments in audits,
inspections and evaluations, and investigations during this period, as well as highlighting ongoing
actions to strengthen OIG operations and progress toward becoming a model OIG.

We hold a unique vantage point from which to monitor and assess Amtrak programs and operations,
and provide thoroughly developed findings and well-reasoned recommendations for improvement.
We continue to build our capabilities and capacity by adding staff with considerable experience in the
railroad industry and extensive background and expertise in auditing, inspections and evaluations, and
investigative work.

We are consistently performing effective independent oversight and fostering mutually beneficial
working relationships among our office, Amtrak management and the Board, the Congress, and other
stakeholders. The quality and number of our audits, inspections and evaluations, and investigations
continue to grow: we currently have several major efforts underway, including reviewing Amtrak’s
approach to enterprise risk management.


Significant Accomplishments

We are stewards of public funds, and as such, we must ensure that monies are spent wisely,
with appropriate value being received. During this reporting period, our audit and evaluation units
issued eight reports and one testimony statement; together, they identified over $343 million in
questioned costs, including unsupported costs and funds to be put to better use
(see appendixes).

•	 Our September 2011 testimony before the Senate Committee on Commerce, Science, and Trans-
   portation, Subcommittee on Surface Transportation and Merchant Marine Infrastructure, Safety,
   and Security, discussed the significant progress Amtrak has made in implementing provisions of
   the Passenger Rail Investment and Improvement Act of 2008 (PRIIA). It also highlighted opportu-
   nities for further improvements under the Act. Our work showed that

    •	 restructuring more Amtrak debt could generate savings of over $400 million,
    •	 implementing long-distance train route improvement plans faces challenges,
    •	 achieving operational stability in Amtrak’s new financial system is key to completing PRIIA
       implementation, and
    •	 determining whether the use of additional special trains would yield profits could help reduce
       federal subsidies.




                         10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                                         3
    From the Inspector General

        •	 We issued a comprehensive audit report assessing Amtrak’s performance in meeting the require-
           ments of the Americans with Disabilities Act (ADA). The Company has been working to make
           stations ADA-compliant, but has faced serious challenges. Also, we questioned the adequacy of sup-
           port for Amtrak’s $175-million FY 2012 ADA budget request. We made several recommendations to
           address the program’s fragmented management, lack of accountability, weaknesses in program cost
           estimates, and gaps in its compliance plans. (See Significant Activities: Audits.)

        •	 We issued two audit reports involving American Recovery and Reinvestment Act (ARRA) funding,
           assessing the extent to which planned security and infrastructure improvements were achieved.
           The ARRA funding enabled the Amtrak Police Department to make some security improvements,
           and Amtrak’s Engineering Department to make some infrastructure improvements, but the
           improvements for both will be fewer than originally planned and budgeted. We identified $41.5
           million in ARRA-funded security projects and $126.9 million in ARRA-funded infrastructure
           projects that could be put to better use. This resulted because Amtrak did not have to take wasteful
           “extraordinary measures” to complete projects by the deadline. We made recommendations that
           the Vice President/Chief of Police and Chief Engineer give canceled ARRA projects priority
           when making future security and infrastructure improvements. Amtrak concurred with our
           recommendations. (See Significant Activities: Audits.)

        •	 We issued an audit report on the accuracy of on-time-performance-incentive payments made by
           Amtrak to host railroads to facilitate the movement of Amtrak trains over host-owned tracks. We
           found that in many cases, Amtrak fully paid invoices that contained errors and were overstated.
           We determine that Metro-North Commuter Railroad inconsistently or inappropriately applied
           provisions of its operating agreement with Amtrak, and these errors caused invoices to be overstated.
           Consequently, Amtrak overpaid Metro-North by almost $520,000 between October 2001 and
           December 2004. Further, Amtrak’s invoice-review process suffered from insufficient staff and cursory
           review procedures. We recommended that Amtrak seek to recover the money overpaid to Metro-
           North, and expedite implementation of its plan for addressing long-standing weaknesses in its
           invoice-review process. Amtrak agreed with our recommendations and detailed planned actions to
           address them. Amtrak has made progress in addressing this issue. (See Significant Activities: Audits.)

        •	 We also issued a significant evaluation report examining Amtrak’s progress in the human capital
           management area. This report presented the results of a follow-up review of our 2009 evaluation.
           We found that Amtrak had made only limited progress in implementing the recommendations.
           As a result, Amtrak continues to suffer from outdated human capital management, training, and
           employee development processes that hinder its ability to perform effectively. In addition, Amtrak
           is increasingly at risk of encountering skills shortages as highly experienced, long-time employees
           retire. Amtrak’s President and CEO agreed with our recommendations and tasked the new Chief
           Human Capital Officer with developing an action plan to address them. (See Significant Activities:
           Inspections and Evaluations.)

        In the investigative area, we have directed our efforts toward working collaboratively and proactively with
        Amtrak management to focus on areas of substantial interest and importance to the company. Working
        with Amtrak Human Resources, we have ensured that suspected fraud in the Amtrak employee health
        care programs is reported directly and in a timely manner to the OIG. We are working with the Amtrak
        Chief Financial Officer to address fraud involving payment cards and credit cards. We are also working
        with Amtrak to ensure that OIG is promptly notified of suspected instances of Amtrak suppliers and
        contractors providing defective or substandard products or workmanship in critical maintenance parts,
        services, and fuel. Finally, we are working to address fraud in the area of injury and illness claims.



                                 10 G Street, NE, Suite 3W-300, Washington, DC 20002
4
                                                                            From the Inspector General

Significant Actions Taken to Strengthen OIG Operations

We are continually taking actions to improve our office operations. We completed a number of
important actions during this reporting period, and have others underway. As we discussed in our
last Semiannual Report, an organizational assessment of OIG carried out by the National Academy of
Public Administration (NAPA) resulted in over three dozen specific recommendations for operational
improvement. Actions completed and underway include:

In the Human Resources area, we have

•	   announced the position of Assistant Inspector General for Administrative Services;
•	   hired new staff for audit, evaluations, and investigations;
•	   hired two new staff members for the quality assurance function; and
•	   completed office renovations that provided improved work space for OIG staff.

In the Organizational area, we have

•	 completed an outside review of the Administrative Services unit and acted to implement the spe-
   cific recommendations to restructure the activity;
•	 completed the organizational assessment and restructuring of the Office of Audits;
•	 established an Office of Congressional and Public Affairs;
•	 completed restructuring of the Office of Investigations; and
•	 completed actions on the initial NAPA recommendations and established Phase II teams to address
   the remaining recommendations. A significant accomplishment from addressing the initial recom-
   mendations was the upgrading of our TeamMate automated working paper software to a more cur-
   rent and capable edition, and providing all audit staff with training on the use of this new tool.

In addition, the U.S. Postal Service’s Office of Inspector General is completing a review designed
to gauge our independence from Amtrak, as required by Public Law 111-117, the Consolidated
Appropriations Act, 2010. (See Significant Activities: Actions Underway to Strengthen OIG
Operations)

I look forward to our continued effective working relationship with the Chairman, Board members,
President and CEO, and executives at Amtrak; along with the House and Senate authorizing, oversight,
and appropriations committees, as we work to meet the challenges facing OIG, Amtrak, the train-riding
public, and taxpayers.




Ted Alves
Inspector General




                         10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                                         5
                                                                                 Heartland Flyer south of Ardmore, OK




6   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                                                  OIG Profile




OIG Profile
Vision, Mission, and Authority
Vision
The Office of Inspector General (OIG) strives to provide Amtrak’s employees,
its customers, the public, and the Congress with the highest quality service and
programs through vigilance, timely action, accuracy, and an overall commitment
to excellence across the broad range of OIG responsibilities.

Mission
The OIG conducts and supervises independent and objective audits, inspections,
evaluations, and investigations relating to Amtrak’s programs and operations;
promotes economy, effectiveness, and efficiency within Amtrak; prevents and
detects fraud, waste, and abuse in Company programs and operations; and
reviews and makes recommendations regarding existing and proposed legislation
and regulations relating to Amtrak’s programs and operations.

Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 U.S.C. Appendix 3),
as amended in 1988 (P.L. 100-504), established the Office of Inspector General
for Amtrak to consolidate existing investigative and audit resources into an
independent organization headed by the Inspector General (IG) to promote
economy, efficiency, and effectiveness; and to prevent and detect fraud, waste,
and abuse. Subsequently, the Inspector General Reform Act of 2008 (P. L. 110-409)
amended and strengthened the authority of the Inspectors General.




                       Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   7
OIG Profile




                                 Guiding Principles and Values
                                 Amtrak’s Office of Inspector General’s principles and values are important
                                 because they form the building blocks used to accomplish our mission and
                                 conduct our day-to-day operations:


                                                               High Quality,
                                                                Relevance,
                                                                Timeliness




                                                                           Respecting and
                                                  Innovation              Developing People




                                                               Independence
                                    Professionalism            and Objectivity          Customer Service



                                 Amtrak’s OIG will:

                                 •	 High Quality, Relevance, Timeliness—Provide valuable and timely service.
                                    Work products are high quality, relevant, timely, add value, and are responsive
                                    to the needs of Amtrak and its stakeholders.

                                 •	 Innovation—Be innovative, question existing procedures, and suggest
                                    improvements. New ideas and creativity are fundamental to continued
                                    growth, development, and problem solving.

                                 •	 Respecting and Developing People—Create an environment that supports
                                    gathering, sharing, and retaining knowledge; fosters treating everyone fairly
                                    and with mutual respect through words and actions; ensures professional
                                    growth; and values the diverse backgrounds, skills, and perspectives of
                                    employees.

                                 •	 Professionalism—Be committed to our professional standards and foster
                                    relationships with stakeholders that rely on communication and cooperation.
                                    Relationships with program managers are based on a shared commitment to
                                    improving program operations and effectiveness.




8   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                                                          OIG Profile




•	 Independence and Objectivity—Be committed to carrying out our mission
   with objectivity and independence, both in appearance and fact.

•	 Customer Service—Strive to be aware of the needs of stakeholders and
   work with Amtrak’s chairman, the Board of Directors, and the Congress to
   improve program management.



Office of Inspector General Organization

                                    Theodore (Ted) Alves
                                        Inspector General

                                     Thomas J. Howard                       Quality Assurance
                                             Deputy
                                        Inspector General                   Communications



    David R. Warren                    Calvin E. Evans                      Adrienne R. Rish
 Assistant Inspector General       Assistant Inspector General         Assistant Inspector General
            Audits                  Inspections & Evaluations                 Investigations




              Colin C. Carriere                        Vacant                        E. Bret Coulson
                     General                  Assistant Inspector General             Congressional and
                     Counsel                    Administrative Services                 Public Affairs


The OIG headquarters is based in Washington, D.C., with five field offices located
in Boston, Chicago, Los Angeles, New York, and Philadelphia.

The Inspector General provides policy direction and leadership for Amtrak’s
Office of Inspector General and serves as an independent voice to the Board
of Directors and the Congress by identifying opportunities and promoting
solutions for improving the company’s performance and economy and efficiency
of operations, while preventing and detecting fraud, waste, and abuse. The
Deputy Inspector General assists the Inspector General in development and
implementation of the OIG’s diverse audit, inspection, evaluation, investigative,
legal, and support operations.




                               Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   9
OIG Profile




                                  Audits
                                  The Audit group conducts performance and financially-related audits across the
                                  spectrum of Amtrak’s support and operational activities. It produces reports on
                                  those activities that are aimed at improving Amtrak’s economy, efficiency, and
                                  effectiveness, while seeking to detect and prevent fraud, waste, and abuse.
                                  The audit activities are focused on issues related to governance, to include
                                  financial management, acquisition and procurement, information technology,
                                  human capital and American Recovery and Reinvestment Act-related activities.
                                  The group conducts its work in accordance with generally accepted government
                                  auditing standards.

The Audit group conducts          Inspections and Evaluations
performance and financial         The Office of Inspections and Evaluations conducts evaluations of Amtrak
audits aimed at improving         programs and operations to identify opportunities to improve cost efficiency and
Amtrak’s economy, effi-           effectiveness, and the overall quality of service delivery throughout Amtrak.
ciency, and effectiveness;
Inspections and Evaluations
                                  Investigations
                                  The Office of Investigations investigates allegations of fraud, waste, abuse,
also identifies opportuni-
                                  and misconduct that could affect Amtrak’s programs, operations, assets, and
ties to improve the overall
                                  other resources. Investigative findings are referred to the Department of Justice
quality of Amtrak service
                                  for criminal prosecution or civil litigation, or to Amtrak management for
delivery. Investigations          administrative action. The office develops recommendations to reduce Amtrak’s
likewise looks into alleged       vulnerability to criminal activity.
fraud, waste, abuse, and
misconduct that could             General Counsel
affect Amtrak’s programs,         The General Counsel is responsible for providing legal assistance and advice to
assets, and resources.            OIG senior management and supports audits, evaluations, special reviews, and
                                  investigations. Counsel coordinates with outside attorneys, including local and
                                  federal agencies and law enforcement attorneys, and appears in court on behalf
                                  of the OIG and its employees.

                                  Administrative Services
                                  The Office of Administrative Services provides financial management,
                                  procurement, human capital management, administrative, and information
                                  technology services to support OIG operations.

                                  Congressional and Public Affairs
                                  The Office of Congressional and Public Affairs serves as the OIG liaison to Con-
                                  gress and other government entities and the public, and conducts OIG outreach.




10   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                                              Amtrak Profile




Amtrak Profile
The National Railroad Passenger Corporation—Amtrak—is incorporated
under the District of Columbia Business Corporation Act (D.C. Code § 29-301
et seq.) in accordance with the provisions of the Rail Passenger Service Act of
1970 (P. L. 91-518). Under the provisions of the Passenger Rail Investment and
Improvement Act of 2008 (P. L. 110-432; 49 U.S.C. § 24302), Amtrak’s Board of
Directors was reorganized and expanded to nine members.

The company is operated and managed as a for-profit corporation providing
intercity rail passenger transportation as its principal business, but relies on
significant funding from the federal government to support operations and capital
investments. Congress created Amtrak in 1970 to take over, and independently
operate, the nation’s intercity rail passenger services. Prior to this, America’s
private freight companies ran passenger rail as required by federal law. Those
companies reported that they had operated their passenger rail services
without profit for a decade or more. With this in mind, when Amtrak began
service on May 1, 1971, more than half of the rail passenger routes then
operated by the freight railroad companies were eliminated.


How It Works: Ownership and Contracting

Amtrak owns the right-of-way of more than 363 route miles in the Northeast
Corridor (NEC, which includes Washington, D.C.–New York City–Boston;
Philadelphia–Harrisburg; and New Haven, Conn.–Springfield, Mass.), as well as 97
miles in Michigan. Amtrak owns 105 stations, and is responsible for the upkeep
and maintenance of an additional 181 stations and 411 platforms. Amtrak owns 17
tunnels and 1,186 bridges.

Amtrak owns most of the maintenance and repair facilities for its fleet of
about 2,000 cars and locomotives. Outside of the NEC, Amtrak contracts with
freight railroads for the right to operate over their tracks. The host railroads
are responsible for the condition of their tracks and for the coordination of all
railroad traffic.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   11
page header




                                                                                                      Lincoln Service, Logan County, IL




12   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                         Significant Activities | Actions Underway to Strengthen OIG Operations




Significant Activities:
Actions Underway to Strengthen OIG Operations

During this reporting period, we have completed or continued several

initiatives to strengthen our office and ensure that we operate as efficiently

and effectively as possible. Many of these initiatives follow recommendations

from the report of the National Academy of Public Administration (NAPA)

(see page 17).
                                                                                                      In September we
                                                                                                      completed a 6-month
Audits                                                                                                organizational assessment
                                                                                                      of the structure and
In September we completed an organizational assessment of the structure and                           effectiveness of the Office
effectiveness of the Office of Audits. This involved discussions with staff, review                   of Audits….[T]his wealth of
of NAPA’s report An Organizational Assessment of the Office of Inspector                              information has pointed to
General (August 2010), our internal assessment, and most recent peer review                           opportunities to improve
(September 2009). Taken together, this wealth of information has pointed to                           the group’s effectiveness
opportunities to improve the group’s effectiveness and efficiency. As a result,                       and efficiency.
we are taking the following major actions in three areas:

•	 Organizational Location / Structure
   ­ Closing small offices (Hampden, Conn.; Wilmington, Del.; and Baltimore),
      and relocating staff to Boston, Philadelphia, and Washington, respectively;
      and renaming three regional offices—West (Los Angeles), Central
      (Chicago), and East (Philadelphia)—with suboffice in Boston.
   ­
•	 Staffing / Career Development
   ­ Developing a Staffing Model. This involves standardizing audit team
      staffing to reduce the disparity across the office in number and audit
      composition of audit teams by senior director, and enhancing our ability
      to be responsive to issues of job complexity and OIG-wide priorities.
   ­
   ­ Standardizing Job Titles and Career Paths. This includes reducing the
      number of job titles from seven to four, and establishing clear skill sets
      for auditors.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   13
Significant Activities | Actions Underway to Strengthen OIG Operations




                                  •	 Operations
                                     ­ Tracking audit staff compliance with continuing professional education
                                        requirements. We have instituted a system to capture training completed
                                        by the audit staff. This action closes out the remaining open recommenda-
                                        tions from our 2009 peer review.
                                     ­
                                     ­ Continuing to Build Staff Capability. This involves ensuring that all staff
                                        receive the necessary training, whether new hires, mid-career level, or
                                        experienced managers.
                                     ­
                                        Standardizing Processes for Conducting Work. This entails strict adher-
                                        ence to certain activities, deliverables, documentation, and supervisory
                                        oversight during the course of all audits.
                                     ­
                                     ­ Tracking Audit Recommendation Follow-up. We have instituted tighter
                                        controls over recommendation-tracking, and have begun briefing
                                        Amtrak’s Board of Directors on a quarterly basis on outstanding
                                        recommendations.
                                     ­
                                     ­ Increasing Use of Data-Analysis Tools. We will develop a plan to utilize
                                        automated data-analysis tools on a more frequent and uniform basis.
                                     ­
                                     ­ Instituting an Annual Work Planning Process. Started in January 2011,
                                        we will issue an annual work plan covering audits, and inspections and
                                        evaluations. The new planning process will help ensure that we prioritize
                                        resources efficiently and effectively.




                                                                                                 OIG audit staff on site visit to Chicago

14   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                         Significant Activities | Actions Underway to Strengthen OIG Operations




Office of Administrative Services
We completed a detailed organizational review of the former Office of
Management and Policy. Renamed the Office of Administrative Services,
functions were realigned to facilitate effective and efficient support services
within OIG.


Human Capital Management
As part of our goal to become a model OIG, we have continued our efforts to
attract and hire highly qualified personnel. During this reporting period, the
following positions have been filled:
                                                                                                      As part of our quest to
    ­
                                                                                                      become a model OIG, we
•	 Special Agent-in-Charge—Philadelphia
                                                                                                      have continued our efforts
    The Philadelphia Special Agent-in-Charge entered on duty July 11. A gradu-
    ate of the Federal Criminal Investigators Training Program, he has more than                      to attract and hire highly
    30 years of auditing and law enforcement experience in the federal inspector                      qualified personnel.
    general community. He served as a Special Agent and an Assistant Special
    Agent-in-Charge with the Department of Defense OIG, Defense Criminal
    Investigative Service. Just prior to joining Amtrak OIG, he returned from his
    second deployment as Regional Director of investigations in Baghdad, Iraq,
    where he was responsible for investigations of contract and procurement
    fraud and other corruption in Iraq, Afghanistan, and Kuwait.

•	 Special Agent-in-Charge—Los Angeles
   The Los Angeles Special Agent-in-Charge entered on duty September 26. She
   brings some 30 years of criminal investigative experience with the Naval
   Criminal Investigative Service and the Postal Service OIG, where she served
   in several field and headquarters special agent-in-charge positions. She has
   extensive expertise in contract and procurement fraud and investigative
   policy.

•	 Senior Director for Inspections and Evaluations
   The incumbent possesses 16+ years’ experience, most recently serving as the
   Principal Deputy Assistant Inspector General–Audits with the Special Inspec-
   tor General for Iraq Reconstruction. He began his career with the Govern-
   ment Accountability Office (GAO), serving as a senior analyst from 2001 to
   2005. He holds a master’s degree in public and international affairs.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   15
Significant Activities | Actions Underway to Strengthen OIG Operations




                                  •	 Principal Operations Analyst.
                                     The incumbent spent the majority of his career within the passenger rail/
                                     transportation industry, is a licensed engineer, and possesses a depth of expe-
                                     rience in operations analysis, financial planning, and project management. He
                                     brings 32+ years of experience to his position with us, and holds two master’s
                                     degrees, in civil engineering and business administration.

                                  •	 L	 ead Evaluator
                                      The incumbent most recently worked for the NASA OIG as an audit proj-
                                      ect manager and supervisor. Prior to that, he worked for OIGs at the Postal
                                      Service, Department of Defense, and the Panama Canal Commission. He also
                                      worked overseas as an auditor for the Army. He brings 30 years of experience
                                      to his position.

                                  •	 Senior Analyst/Independent Referencer
                                     The incumbent possesses 6 years of audit/evaluation experience. She began
                                     her career as an analyst with GAO; she has also worked for the Special In-
                                     spector General for Iraq Reconstruction and the Special Inspector General for
                                     Afghanistan Reconstruction. She holds dual master’s degrees, in international
                                     commerce and international business.

                                  •	 Senior Auditor
                                     The incumbent brings 8 years of auditing and analytical experience, all in
                                     the accountability community. Beginning her career with GAO, she has also
                                     worked for the Special Inspector General for Iraq Reconstruction and the
                                     Special Inspector General for Afghanistan Reconstruction. She holds a mas-
                                     ter’s degree cum laude in security and intelligence studies.

                                  •	 Management Analyst
                                     The incumbent for this entry-level role completed an internship at GAO,
                                     working in the Homeland Security and Justice areas. She is a recent graduate
                                     of Kent State University, with a bachelor’s degree in justice studies.

                                  •	 Senior IT Officer
                                     The incumbent brings multiple years of experience to this critical role. Most
                                     recently, he worked at Amtrak as a consultant through IBM. As a desktop
                                     support specialist, he provided key technical support to executive and staff
                                     personnel. He holds an associate’s degree and has specialized training in
                                     CCNA (Cisco), A+, and Net+.




16   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                          Significant Activities | Actions Underway to Strengthen OIG Operations




Recruitment. At present, the office is recruiting for several other critical positions,
among them an Assistant Inspector General for Administrative Services, Special
Agent-in-Charge—Chicago, and criminal investigators for Chicago and Los
Angeles, plus an evaluator and lead evaluator.


NAPA Recommendations
As we discussed in our last Semiannual Report, the NAPA organizational
assessment of OIG resulted in 41 specific recommendations for operational
improvement in eight areas. These are:

•	   Internal Communications
•	   External Communications
•	   Quality & Timely Work Processes
•	   Work Planning & Prioritization
•	   Performance Measures
•	   Policy Management & Updates
•	   Independence
•	   Human Capital Management


We have developed implementation roadmaps for these areas, designed to help
us achieve one of our strategic goals: becoming a model OIG. Teams to carry
out the implementation of the roadmaps have been created for five of these
areas; two more will follow shortly. Actions identified to improve processes,
policies, and management practices for the area of Independence have already
been completed. The teams have been meeting for the past several months, and
are well on their way toward making the recommended changes a reality. Such
changes include developing performance and accountability measures, defining
annual work priorities, and developing high-quality and timely work processes.




                         Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   17
                                                                                                              Empire Builder




18   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                       Significant Activities | Audits




Significant Activities:
Audits

During this reporting period, the Office of Audits issued one testimony

statement and six reports.



Audits/Testimony Issued This Reporting Period

This is a summary of testimony and audit reports issued between April 1 and
September 30, 2011. The complete products may be accessed through our website:
www.amtrakoig.gov.


Progress and Opportunities in Amtrak’s Implementation of the
Passenger Rail Investment and Improvement Act of 2008
(Testimony TM-11-01, September 14, 2011)

In testimony before the Senate Committee on Commerce, Science,
and Transportation, Subcommittee on Surface Transportation
and Merchant Marine Infrastructure, Safety, and Security, Amtrak
Inspector General Ted Alves discusses the progress Amtrak had
made in implementing provisions of the Passenger Rail Investment
and Improvement Act of 2008 (PRIIA). He pointed out that Amtrak                               Amtrak Inspector General Ted Alves
has made good progress in addressing the 29 PRIIA provisions assigned to it.                           testifying before Congress
The IG also highlighted opportunities for further improvements under the Act.
Preliminary audit results found that

•	 restructuring more Amtrak debt could generate savings;

•	 implementing long-distance improvement plans faces challenges, largely due
   to the need for host railroads’ approval, which has been contingent upon Am-
   trak’s providing millions of dollars for infrastructure improvements—dollars
   that Amtrak does not have;

•	 the use of on-time-performance remedies requires a process and specific
   criteria;




                       Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   19
Significant Activities | Audits




                                  •	 implementing Amtrak’s new financial system (Strategic Asset Management—
                                     SAM) is key to completing PRIIA implementation; and

                                  •	 Amtrak does not know whether the use of additional special trains could help
                                     reduce federal subsidies. (Special trains are those not on Amtrak’s timetable
                                     and are operated on an as-needed basis via contractual agreement between
                                     Amtrak and the party requesting service. An example would be an added train
                                     for a sporting event, such as the Super Bowl.)

                                  We made suggestions in each of these areas.


                                  On-Time-Performance Incentives: Inaccurate Invoices Were Paid Due to
                                  Long-standing Weaknesses in Amtrak’s Invoice-Review Process
Metro-North’s billing error
                                  (Audit Report 403-2010, April 21, 2011)
rate of approximately
26% went undetected
                                  The Amtrak Office of Inspector General (OIG) conducted this audit because of
because of long-standing
                                  previously identified control weaknesses and the significant dollars associated
weaknesses in Amtrak’s
                                  with Amtrak’s on-time-performance incentive payments. The objectives of this
invoice-review process.           audit were to (1) determine whether Metro-North Commuter Railroad complied
Consequently, Amtrak              with operating agreements in calculating on-time-performance incentives
overpaid Metro-North              invoiced to Amtrak from October 2001 through December 2004; and (2)
by almost $520,000                evaluate the adequacy of Amtrak controls and processes for reviewing on-time
in on-time-performance            performance incentive invoices.
incentive payments.
                                  OIG found that Metro-North Commuter Railroad inconsistently or inappropriately
                                  applied provisions of its operating agreement with Amtrak, and this caused
                                  invoices to be overstated. Metro-North’s billing error rate of approximately 26
                                  percent went undetected because of long-standing weaknesses in Amtrak’s
                                  invoice-review process. Consequently, Amtrak overpaid Metro-North by almost
                                  $520,000 in on-time-performance incentive payments from October 2001 through
                                  December 2004.

                                  In summary, we recommended that Amtrak (1) recover $519,932 that Amtrak
                                  overpaid Metro-North in on-time-performance incentives, (2) ensure that Metro-
                                  North understands that the actual run time is to be used and compared with
                                  allowed run times in the calculation of on-time-performance incentives, and (3)
                                  expedite implementation of its plan to improve the capabilities of its invoice-
                                  review process.




20   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                        Significant Activities | Audits




                                                         OIG staff on a site visit to Los Angeles


Strategic Asset Management Program: Further Actions Should be Taken to
Reduce Business Disruption Risk
(Audit Report 001-2011, June 2, 2011)

Amtrak’s Strategic Asset Management (SAM) program is estimated to cost as
much as $401 million. The goal of the program is to transform key business
operations such as finance and logistics by replacing or enhancing many manual
and automated systems. We reviewed the program, given its cost and importance
to business operations. The first segment, referred to as R1a, was scheduled to
be implemented in June 2011. Our audit objective was to determine whether the
R1a’s implementation approach effectively addressed business disruption risks.

The SAM management team developed and implemented a detailed approach
to testing and mitigating business disruption risks associated with the
implementation of R1a. However, we identified several gaps in the testing and
contingency plans. Left unaddressed, these gaps leave Amtrak vulnerable to
business disruptions that could reduce revenues, increase costs, and negatively
impact customer service.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   21
Significant Activities | Audits




                                 The R1a has a large scope that includes 33 separate software applications that
                                 are linked by 81 separate financial, logistics, and operational data exchange
                                 interfaces. The implementation time frame is relatively aggressive, compared
                                 with private-sector best practices. The 2-year schedule is about half the time it
                                 took a private-sector firm to implement a similar effort. Also, all software systems
                                 will be deployed at the same time versus incrementally, increasing the complexity
                                 of the implementation.

                                 The SAM management team has been assessing and testing for risks associated
                                 with an R1a software deployment failure. It has identified 21 mission-critical
                                 business process areas as high-risk for business disruption should they fail to
                                 work. These include risks to the payroll runs, financial data conversion from the
                                 old to new systems, and existing procurement software properly interfacing with
                                 the new system.




                                                               Inspector General Ted Alves and OIG staff on a site visit to Philadelphia

                                 Our analysis and discussion with system users show that tests do not ensure end-
                                 to-end system reliability in actual operating conditions with optimized system
                                 interface performance. Also, the contingency plans do not address worst-case
                                 scenarios because risk of a failure was determined to be low.
                                 As a result, the plans do not adequately address user concerns about how certain
                                 critical processes—such as payroll runs—will be continued if there is a failure.




22   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                        Significant Activities | Audits




We understand that addressing these issues involves time and resources.
However, given the significance of the potential business disruption, the
additional benefits in risk-reduction could represent a prudent investment of
resources.

We recommended that Amtrak (1) resolve issues with interfaces, data conversion,
network infrastructure, and contingency plans for continuity; and (2) involve
Process Leadership Team members in making a go/no-go decision to move
forward with the R1a deployment. We also recommended actions to help improve
the effectiveness of the SAM program’s remaining segments. While management
agreed with most recommendations and added some tests, it decided to deploy                           ARRA authorized FRA to
the system on schedule and correct problems as they arose, rather than delay                          provide $1.3 billion to
deployment to complete the testing.                                                                   Amtrak: $850 million
                                                                                                      for capital projects, and
                                                                                                      about $450 million for
American Recovery and Reinvestment Act: Fewer Security Improvements
                                                                                                      capital security projects.
than Anticipated Will be Made and Majority of Projects are Not Complete
(Audit Report 914-2010, June 16, 2011)

The American Recovery and Reinvestment Act of 2009 (ARRA) authorized
the Federal Railroad Administration (FRA) to provide $1.3 billion to Amtrak
through a grant agreement. This agreement allocated about $850 million for
capital projects (the repair, rehabilitation, or upgrade of railroad assets or
infrastructure), and about $450 million for capital security projects, including life
safety improvements. FRA retained about $4.2 million for program oversight and
we were allocated $5 million for that purpose. The grant agreement required all
projects to be completed by February 17, 2011, and originally required Amtrak
to take “extraordinary measures” before requesting a waiver to extend project
completion beyond the deadline.

The Amtrak Police Department (APD) received funds under the capital security
portion of the grant agreement to improve security at stations, around bridges
and tunnels, and for some nationwide security projects. The APD ARRA budget
was $95.1 million. Our objective was to review ARRA-funded police and security
projects to determine the extent to which planned security improvements were
achieved. This is one in a series of reports we plan to issue on Amtrak’s use of
Recovery Act funds.

ARRA funding enabled APD to make some security improvements, but the
improvements will be fewer than originally planned and budgeted. Between April
2009 and November 2010, ARRA funding for police and security projects was cut
by more than half, from $196 million to $95 million. This decrease caused 33


                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   23
Significant Activities | Audits




                                  projects to be canceled, and the budget and scope of work for 16 additional
                                  projects were reduced. Funding was reduced primarily because the grant
                                  language drove project selection toward those that could be completed by the
                                  February 2011 deadline, and in some cases bids were significantly higher than
                                  budgeted amounts. Amtrak spent about $1.7 million on canceled APD projects.
                                  To the extent that these projects are not funded in the future, these funds are at
                                  risk of being wasted.

                                  To avoid wasting $1.7 million spent on canceled projects, we recommended
                                  that the Vice President/Chief of Police give canceled ARRA projects priority
                                  when making future security improvement project-selection decisions. The Vice
                                  President and Chief of Police agreed with our recommendation and indicated
                                  that steps have been taken to utilize the designs from some canceled security
                                  projects.


                                  American Recovery and Reinvestment Act: Infrastructure Improvements
                                  Achieved but Less than Planned
                                  (Audit Report 908-2010, June 22, 2011)

                                  Amtrak’s Engineering Department received funds under the security and non-
                                  security portion of the ARRA-authorized FRA grant agreement. It contracted with
                                  Jacobs Projects Management Company for design and construction management
                                  services. Jacobs managed 37 projects, with a budget of $483.6 million.




                                                                                                                 Acela



24   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                        Significant Activities | Audits




                         Our objective was to review the ARRA-funded, Jacobs-
                         managed projects to determine the extent to which
                         planned infrastructure improvements were completed.

                          Although ARRA funding enabled Amtrak’s Engineering
                          Department to make some infrastructure improvements,
they were fewer in number than originally planned and budgeted. Between March
2009 and November 2010, ARRA funding was reprogrammed nine times, resulting
in the Engineering Department removing 34 projects, leaving 37 assigned to
Jacobs. Specifically, 21 projects (with an estimated budget of $55.7 million) were
canceled, and 13 (with an estimated budget of $19.5 million) were transferred
to the capital budget. These changes occurred primarily because the original
grant language drove project selection toward projects that could be completed
by February 17, 2011, and the substitution of higher priority projects by Amtrak
senior management and the Engineering Department. Amtrak spent about $1.4
million on canceled Jacobs projects.

We recommended that the Chief Engineer give canceled ARRA projects priority
when making future infrastructure-improvement project-selection decisions, and
provide written justification to support the funding of higher priority projects.
The Chief Engineer stated that he intends to give priority to canceled projects.


Americans with Disabilities Act: Leadership Needed to Help Ensure That
Stations Served By Amtrak Are Compliant
(Audit Report 109-210, September 29, 2011)
                                                                                                      There are 482 Amtrak-served
The Americans with Disabilities Act (ADA) became law in 1990 and required that                        stations that are required
intercity rail stations be made accessible to persons with disabilities by July 2010.                 to be ADA-compliant. In
There are 482 Amtrak-served stations that are required to be ADA-compliant. In                        February 2009,…only 48 of
February 2009, as required by the Passenger Rail Investment and Improvement                           the ADA-required stations it
Act of 2008, Amtrak provided a plan to Congress that showed only 48 of the ADA-                       serves were compliant and
required stations it serves were compliant and $1.5 billion was needed to make                        $1.5 billion was needed to
the remaining 434 stations compliant. Amtrak reported it could not meet the                           make the remaining 434
legislative timeframe for achieving compliance and set a goal date of September                       stations compliant.
30, 2015. In October 2010 Amtrak issued an updated plan.

Our objectives were to assess (1) Amtrak’s progress in achieving ADA
compliance at the stations it serves, and (2) whether any gaps exist in Amtrak’s
updated plan to achieve ADA-compliance by its September 30, 2015, goal.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   25
Significant Activities | Audits




                                                         An Amtrak employee assisting a passenger onto a train using a wheelchair lift


                                  Since 1990, Amtrak has made limited progress in making the stations it serves
                                  ADA-compliant, and since its 2009 report to Congress, no additional stations have
                                  become compliant. The compliant stations served about 34 percent of Amtrak’s
                                  FY 2010 ridership.

                                  Recent Amtrak actions have laid the groundwork to help ensure compliance
                                  by its goal date. The key steps in laying the foundation include (1) determining
                                  who has ADA responsibility for Amtrak-served stations; (2) refocusing its
                                  compliance plan on stations at which Amtrak has ADA responsibility; and
                                  (3) most importantly, developing a multi-year program, called the Accessible
                                  Station Development Program, to identify and complete the work required to
                                  make stations ADA-compliant. While these are important steps, progress in
                                  implementing the Accessible Station Development program has been limited.


26   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                        Significant Activities | Audits




For example, while facility assessments have been completed for some stations,
no construction contracts have been awarded.

In addition, Amtrak developed and piloted a program to provide audio and visual
messages for passengers who are hearing or visually impaired, or blind, called
the Passenger Information Display System (PIDS); and initiated a program to
improve access to stations for persons using wheelchairs, called the Mobility
First program. However, progress in implementing PIDS has been limited and
Mobility First has taken longer than expected to complete. For example, the date
to install wheelchair lifts at stations currently without wheelchair accessibility
has been delayed from February to September 2011.                                                     The underlying cause
                                                                                                      of the limited program
Key gaps also exist in Amtrak’s October 2010 updated plan. First, the plan does                       progress and planning
not address how stations that Amtrak serves but that have no ADA responsibility                       weaknesses is the
will achieve compliance. Achieving compliance for those stations is dependent                         programs’ fragmented
upon other parties—who are responsible for 225 station structures, 83 platforms,                      management and
and 241 parking facilities. Second, the plan does not include the estimated cost of                   lack of accountability
compliance. On a related note, Amtrak does not have adequate support for its FY                       for results. Currently,
2012 ADA budget request of $175 million. Therefore, we questioned the need to                         seven departments
dedicate $175 million to fund ADA in FY 2012. Instead, the funds would be better                      are involved in program
used to support other capital requirements.                                                           management, with no
                                                                                                      one office or official held
The underlying cause of the limited program progress and planning weaknesses
                                                                                                      accountable….
is the programs’ fragmented management and lack of accountability for results.
Currently, seven departments are involved in program management, with no one
office or official held accountable for results. Further, the current status of ADA
efforts leaves the company vulnerable to significant financial liability resulting
from potential legal judgments and detracts from Amtrak’s strategic goals of
improving safety and customer service.

To help ensure that ADA-compliance is achieved by Amtrak’s goal date, we rec-
ommended that Amtrak address the program’s fragmented management structure
and lack of accountability for results, weaknesses in program cost estimates, and
gaps in the ADA-compliance plan. In addition, Congress may wish to question
Amtrak’s request for $175 million in FY 2012 for ADA projects.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   27
Significant Activities | Audits




                                  Acela Car Purchase Draft Request for Proposal: Additional Requirements
                                  and Pre-Award Audit Clause Needed to Help Assess Proposed Price
                                  and Cost
                                  (Audit Report 009-2011, September 21, 2011)

                                  In August 2011, Amtrak issued a draft request for proposals (RFP) to purchase 40
                                  Acela coach cars through a firm, fixed-price contract. These cars will be inserted
                                  into the existing Acela trainsets and must integrate technologically as well as
                                  cosmetically with the current fleet. Because the original equipment manufacturer
                                  holds the intellectual property required to produce the cars and maintains the
These gaps occurred
                                  original electronic manufacturing drawings, Amtrak plans to award the Acela
because Amtrak’s standard
                                  coach car contract on a sole-source basis to the original manufacturer. The
contracting policies for          objective of this audit was to review the draft RFP and determine whether it
sole-source RFPs do not           contained adequate requirements to assess the proposed cost and price.
contain specific guidance
on requirements for               While the draft RFP required the offeror to submit a price proposal that included
certified cost and pricing        necessary costs, there are two areas in the draft that, if improved, would enhance
data or a pre-award               Amtrak’s ability to assess the reasonableness of the price proposal. These
audit clause. Without             improvements represent acquisition best practices that are based on the Federal
these elements, Amtrak            Acquisition Regulation. First, the draft RFP did not require that the offeror
will potentially not have         provide certified cost and pricing data sufficient for a detailed assessment of the
sufficient information to         reasonableness of the
assess the reasonableness
                                  price proposal. Second,
                                  the draft RFP did not
of the offeror’s proposal
                                  include a pre-award
and negotiate a fair and
                                  audit and inspection
reasonable firm, fixed price.
                                  clause providing Amtrak
                                  with access to the
                                  offeror’s supporting
                                  documentation. These
                                  gaps occurred because
                                  Amtrak’s standard
                                  contracting policies for
                                  sole-source RFPs do not
                                  contain specific guidance
                                  on requirements for           The Inspector General and OIG staff on a site visit to Philadelphia
                                  certified cost and pricing
                                  data or a pre-award audit clause. Without these elements, Amtrak potentially
                                  would not have had sufficient information to assess the reasonableness of the
                                  offeror’s proposal and negotiate a fair and reasonable firm, fixed price.




28   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                        Significant Activities | Audits




We recommended, therefore, that Amtrak make the following revisions to the
Acela RFP and amend Amtrak’s procurement policy to require these revisions in
all sole-source RFPs in excess of Amtrak’s small dollar procurement threshold
(currently $100,000): (1) require the offeror to submit certified cost and pricing
data, and (2) add a pre-award audit and inspection clause. In commenting
on a draft of this report, Amtrak management agreed with both of our
recommendations, and subsequently incorporated both provisions into the RFP.


Ongoing Audits
During the next 6 months, the Office of Audits expects to complete work on the
following:

•	 A review to determine whether Amtrak’s risk management framework and
   processes are effective in identifying and controlling financial, operational,
   and regulatory risks, and are consistent with private and public best prac-
   tices.

•	 An audit of Amtrak’s management of employment background investigations,
   including a review of policies, processes, and practices used to conduct new
   employee background investigations, with an emphasis on the use of that
   information in the hiring process; and oversight of contractors performing
   background investigations, with an emphasis on oversight of contractors’
   timeliness in providing investigation reports.

•	 A review of the progress Amtrak management has made in implementing pro-
   visions of The Passenger Rail Investment and Improvement Act of 2008.

•	 An audit to determine if costs paid under selected American Recovery and
   Reinvestment Act-funded contracts are reasonable and allowable.

•	 An audit of progress implementing the Strategic Asset Management Program.

•	 A contract incurred-cost audit on an infrastructure project.

•	 An audit of security issues related to Amtrak’s wireless computer program.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   29
                                                  Dining car on the Auto Train, traveling between Lorton, Virginia, and Sanford, Florida




30   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                               Significant Activities | Inspections and Evaluations




Significant Activities:
Inspections and Evaluations

During this reporting period, OIG issued two evaluation reports, an

examination into food and beverage service revenue losses, and a review of

Amtrak’s progress in improving its human capital management and training

and development practices.


                                                                                                      [W]eaknesses allow
                                                                                                      certain employees to
Evaluations Issued This Reporting Period                                                              carry out schemes
These are summaries of the inspection and evaluation reports issued between                           in which they falsify
April 1 and September 30, 2011. The complete reports may be accessed through                          documents to conceal
our website: www.amtrakoig.gov.
                                                                                                      stolen cash or
                                                                                                      inventory…. $4 million
Food and Beverage Service: Further Actions Needed to Address Revenue                                  to $7 million of Amtrak’s
Losses Due to Control Weaknesses and Gaps                                                             onboard food and
(Evaluation Report E-11-03, June 23, 2011)                                                            beverage sales could be
                                                                                                      at risk of theft.
This report examined the causes of revenue losses associated with Amtrak’s
onboard food and beverage service. While Amtrak has taken some action to
address the internal control weaknesses that have led to and continue to make
these revenues and inventories vulnerable to fraud, waste, and abuse, such
weaknesses and gaps remain. These weaknesses allow certain employees to
carry out schemes in which they falsify documents to conceal stolen cash or
inventory. The fraudulent nature of these schemes makes it difficult to measure
onboard losses. Still, restaurant-industry sources estimate that losses for a typical
independent restaurant due to theft range from 4 percent to 7 percent of sales.
On the basis of these estimates, $4 million to $7 million of Amtrak’s onboard food
and beverage sales could be at risk of theft. These losses also damage Amtrak’s
reputation as a steward of federal funds and as a provider of high-quality
customer service.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   31
Significant Activities | Inspections and Evaluations




                                  We made the following recommendations, all of which were agreed to by Amtrak
                                  management:

                                  1.	 Establish a pilot project of cashless food and beverage sales on selected
                                      routes and trains to determine the short- and long-term effects on operations
                                      loss prevention, revenues, costs, customer satisfaction, and the onboard work
                                      environment.

                                  2.	 Provide resources needed to establish a loss-prevention unit with dedicated
                                      staff to manage loss prevention, investigate losses, and provide a visible
                                      deterrent to fraud, waste, and abuse.

                                  3.	 Have the loss-prevention unit implement an internal control action plan to
                                      address weaknesses and gaps in the on-board food and beverage service. The
                                      plan should include goals, milestones, and procedures to establish

                                      •	 a fraud-awareness program for onboard food and beverage employees;

                                      •	 internal controls and processes to randomly search lead service atten-
                                         dants and other service employees to detect possible unauthorized items
                                         coming on board;

                                      •	 internal controls and processes to randomly review lead service atten-
                                         dants’ inventories of deliveries, en route transfers, and end-of-trip stocks
                                         to minimize fraud, waste, and abuse; and

                                      •	 internal controls and processes to randomly search lead service atten-
                                         dants and other service employees when departing the train to detect
                                         possible stolen items.


                                  Human Capital Management: Lack of Priority Has Slowed OIG-
                                  Recommended Actions to Improve Human Capital Management, Training,
                                  and Employee Development Practices
                                  (Evaluation Report E-11-04, July 8, 2011)

                                  This report presented the results of a follow-up review of our 2009 evaluations of
                                  human capital management (E-09-03, May 15, 2009) and training and employee
                                  development (E-09-06, October 26, 2009). We found that 2 years after we issued
                                  24 recommendations for improving Amtrak’s human capital management
                                  practices and 19 months after issuing 27 recommendations to improve training
                                  and employee development practices, Amtrak made only limited progress in


32   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                       Significant Activities | Inspections and Evaluations




implementing the recommendations. Further, in several cases, the planned
actions identified to correct significant deficiencies were not responsive to the
recommendations and would not address the underlying problems; in some
cases, progress was exaggerated. As a result, Amtrak continues to suffer from
outdated human capital management, training, and employee development
processes that hinder its ability to perform effectively. In addition, Amtrak is
increasingly at risk of encountering skills shortages as highly experienced, long-                    Amtrak continues to suffer
time employees retire.                                                                                from outdated human
                                                                                                      capital management,
To address this situation, we recommended that the President and CEO (1) make                         training, and employee
improved human capital management, training, and employee development a                               development processes
clearly articulated priority for the Chief Human Capital Officer, as well as for                      that hinder its ability
all executives and managers at Amtrak; and (2) direct the Chief Human Capital                         to perform effectively.
Officer to revise the Human Capital Action Plan to include actions that are                           In addition, Amtrak
responsive to the recommendations and with reasonable implementation time                             is increasingly at risk
frames.
                                                                                                      of encountering skills
                                                                                                      shortages as highly
Amtrak’s President and CEO agreed with our recommendations and has tasked
                                                                                                      experienced, long-time
the new Chief Human Capital Officer with developing an action plan to address
                                                                                                      employees retire.
our findings and recommendations.


Ongoing Evaluations
During the next 6 months, the Office of Inspections and Evaluations will continue
to work on the following:

•	 A follow-up evaluation of Amtrak’s mechanical maintenance operations,
   examining progress made since our 2005 review, which recommended the
   adoption of Reliability-Centered Maintenance to improve effectiveness and
   efficiency.

•	 An evaluation, in response to a complaint, ascertaining whether Amtrak is
   following its policy that governs the assignment of individuals to temporary
   management positions. The complaint alleged that failure to follow the policy
   has resulted in disparate pay practices.

•	 An evaluation of Amtrak’s plan to increase Acela capacity, and whether it is
   supported by reasonable estimates and assumptions.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   33
page header




                                                                                                       Heartland Flyer, Gene Autry, OK




34   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                             Significant Activities | Investigations




Significant Activities:
investigations

During this reporting period, the Office of Investigations (OI) hired two

highly experienced Special Agents-in-Charge to manage its offices in

Philadelphia and Los Angeles. The Office also acted to ensure that all OI

criminal investigators meet the competency requirements of the Council

of the Inspectors General on Integrity and Efficiency (CIGIE). OI opened

22 new cases during this period, while closing 162; our hotline received

161 new contacts.



Health Care Fraud Reporting
Following discussions with OIG investigations, Amtrak Human Resources agreed
to reinstate a contract requirement that the Third Party Administrator for the
Amtrak Employee Group Medical Plan must report instances of suspected health
care fraud to OIG.


Payment Card and Credit Card Fraud
OI is working collaboratively with the Amtrak Chief Financial Officer to address
instances of suspected fraud involving payment cards and credit cards.


Illness, Injury, and Disability Claims
OI is addressing the issue of employee illness and injury reporting. This effort
is intended to increase our understanding of fraud indicators in these claims,
increase fraud awareness, and increase the reporting of suspected fraudulent
claims to OIG.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   35
Significant Activities | Investigations




                                    Fraud Awareness and Internal Controls Presentations
                                    In concert with OIG’s Office of Audits, OI has continued a comprehensive effort
                                    to deliver fraud awareness briefings to Amtrak management, operations, and
                                                      support personnel. This training is designed to help Amtrak
                                                      managers, employees and contractors recognize fraud
                                                      indicators and report suspicions of fraud to OIG. The briefings
                                                      are also designed to educate Amtrak management on OIG’s
                                                      role and to foster a partnership between OIG and management.
                                                      During this reporting period, 37 presentations have been
                                                      given to a total of 442 Amtrak employees and officers,
                                                      including the Board of Directors, Executive Committee, and
                                                      managers and employees in the Engineering, Mechanical, and
                                                      Procurement departments. The program was also presented
                                                      at the Association of American Railroads Internal Audit and
                                                      Accounting Conference.

                                                          Additionally, to ensure that Amtrak personnel are aware of the
                                                          importance of adhering to internal controls to prevent revenue
                                                          losses from conductor ticket sales, the Revenue Protection Unit
                                                          conducted four presentations to a total of 56 newly-hired or
                                                          newly-promoted assistant conductors.
          LaVan Griffith, Deputy AIG, Investigations
     —Field Operations, on a site visit to Philadelphia



                                    Revenue Protection Unit
                                    In conjunction with mostly random onboard train observations of lead service
                                    attendants, the Revenue Protection Unit analyzed support documentation
                                    for onboard food and beverage sales. The 44 completed reviews resulted in
                                    six administrative referrals. Based on these and prior referrals, Amtrak took
                                    disciplinary action on nine lead service attendants.

                                    Since 2003, the Revenue Protection Unit has observed and analyzed the
                                    supporting documentation for numerous lead service attendants. Those findings
                                    were instrumental in the preparation of the June 2011 OIG Evaluation Report
                                    entitled Food and Beverage Service: Further Actions Needed to Address Revenue
                                    Losses Due to Control Weaknesses and Gaps (see Significant Activities:
                                    Inspections and Evaluations). This report identified internal control
                                    weaknesses in food and beverage service and included recommendations to
                                    address them, with which Amtrak management agreed.



36    Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                            Significant Activities | Investigations




OI Retooling
During this reporting period, OIG has focused on and made significant progress in
restructuring and retooling the Office of Investigations.

OI streamlined and simplified the position descriptions for criminal investigators
and ensured that all criminal investigators meet the qualifications, training, and
competency requirements of the Council of Inspectors General for Integrity and
Efficiency (CIGIE). OI has also closed the Baltimore office, and reassigned its
personnel to Washington, D.C.

OIG also signed an agreement with a healthcare contractor to provide annual
medical/physical exams to all criminal investigators, to ensure that they meet the
appropriate medical and physical standards. OI continues to review and revise
policy directives to ensure compliance with CIGIE standards.

OI has reviewed and properly disposed of extensive old case files and case
materials in accordance with Amtrak and OIG records retention policies.

OI has also hired two highly qualified, experienced, and accomplished
investigative managers for Special Agent-in-Charge positions in Philadelphia and
Los Angeles.




                       Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   37
page headerActivities | Investigations
Significant




                                                                                        Coast Starlight at Pinole, CA




38   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                                                      Performance Measures




FY 2011 Performance Measures,
4/1/2011—9/30/2011

Audit/Evaluation Results
Congressional Testimony                                             1
Reports/Evaluations Issued                                          8
Costs Questioned/Unsupported/
Funds to be Put to Better Use                     a$343,919,932

Management Decisions
to Seek Recoveries                                                  4



Investigative Results
Financial Impact                                                             Hotline Contacts/Referrals
Recoveries                                                     $675          Customer Service                                                   51
                                                                             Management                                                         48
Cases Opened                                                                 Request for Assistance by                                             4
Procurement Fraud                                                   6        Law Enforcement Agency
Conflict of Interest                                                3        Preliminary Investigation Opened                                      6
Theft/Embezzlement                                                  2        No Action Warranted                                                52
Time and Attendance Fraud                                           2        Total                                                            161
Cost Mischarging                                                    2
Procurement Irregularity                                            2
Proactive Reviews                                                   1
False Statements                                                    1        Advisory Functions
Product Substitution                                                1        FOIA Requests Received                                            b
                                                                                                                                                17
Policy Violation                                                    1        FOIA Requests Processed                                           b
                                                                                                                                                13
Drug Investigation                                                  1            Referred to Amtrak                                                3
                                                                                 Open                                                              1
Judicial and Administrative Actions	                                0        Legislation Reviewed                                                  0
                                                                             Regulations Reviewed                                                  0
Investigative Workload
Cases Open on 4/1/2011                                           202
Investigations Opened                                              22
Investigations Closed                                            162
Cases Open on 9/30/2011                                            62




a 	Not included in this amount are the funds to be put to better use identified in Report E-11-02. Implementing the recommendations in this report
   would allow Amtrak to reduce its fleet requirements by 53 cars and 25 locomotives over the 30-year planning period in Amtrak’s Fleet Strategy,
   resulting in a potential reduction of over $520 million in procurement and overhaul costs over the lives of these additional pieces of equipment.
b 	Includes one appeal.




                            Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011                     39
                               This is a blank page




40   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                                                 Appendix




Appendixes



Appendix 1

Office of Inspector General
Audit/Evaluation Reports Issued with Questioned Costs

                                     Reporting Period: 4/1/2011–9/30/2011

Category                                                Number            Questioned Costs         Unsupported Costs
A.	 For which no management decision has been               3                 $20,292,138                 $1,037,862
    made by the commencement of the reporting
    period.
B.	 Reports issued during the reporting period.             1                               0                  519,932
Subtotals (A + B)                                           4                 $20,292,138                 $1,557,794


Less
C.	 For which a management decision was made                4                     20,292,138                1,557,794
    during the reporting period.
   (i)	 dollar value of recommendations that                2                     20,052,519                   519,932
        were agreed to by management.
   (ii)	dollar value of recommendations that                2                       239,619                 1,037,862
        were not agreed to by management.
D.	 For which no management decision has been               0                $	             0             $	          0
    made by the end of the reporting period.




                    Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   41
Appendix




     Appendix 2

     Office of Inspector General
     Audit/Evaluation Reports with Funds to be Put to Better Use

                                             Reporting Period: 4/1/2011–9/30/2011

      Category                                                                         Number                      Dollar Value
      A.	 For which no management decision has been                                           0               $	             0
          made by the commencement of the reporting
          period.
      B.	 Reports issued during the reporting period.                                         3                343,400,000
      Subtotals (A + B)                                                                       3               $343,400,000
      Less
      C.	 For which a management decision was made                                            3                343,400,000
          during the reporting period.

          (i)	 dollar value of recommendations that were                                      3                343,400,000
               agreed to by management.

          (ii)	dollar value of recommendations that were                                      0                              0
               not agreed to by management.
      D.	 For which no management decision has been                                           0               $	             0
          made by the end of the reporting period.




42   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                                                       Appendix




APPENDIX 3

OFFICE OF INSPECTOR GENERAL
DETAILED LISTING OF ALL ISSUED AUDIT/EVALUATION REPORTS AND TESTIMONY

                                          Reporting Period: 4/1/2011–9/30/2011

Date         Report/     Report Title                         Report             Questioned     Unsupported       Funds to be Put
Issued       Testimony                                        Category                Costs           Costs         to Better Use
             Number
04/21/2011   403-2010    On-Time-Performance Incentives:      Acquisition &           $    0        $519,932     $                0
                         Inaccurate Invoices Were Paid Due    Procurement
                         to Long-standing Weaknesses in
                         Amtrak’s Invoice-Review Process
06/02/2011   001-2011    Strategic Asset Management           Information                  0                0                     0
                         Program: Further Actions Should      Technology
                         Be Taken to Reduce Business
                         Disruption Risk
06/16/2011   914-2010    American Recovery and                Acquisition &                0                0         41,500,000
                         Reinvestment Act: Fewer Security     Procurement
                         Improvements than Anticipated Will
                         be Made and Majority of Projects
                         Are Not Complete
06/22/2011   908-2010    American Recovery and Reinvest-      Acquisition &                0                0        126,900,000
                         ment Act: Infrastructure Improve-    Procurement
                         ments Achieved but Less than
                         Planned
06/23/2011   E-11-03     Food and Beverage Service: Fur-      Train                        0                0                     0
                         ther Actions Needed to Address       Operations
                         Revenue Losses Due to Control        & Business
                         Weaknesses and Gaps                  Management
07/08/2011   E-11-04     Human Capital Management: Lack       Human                        0                0                     0
                         of Priority Has Slowed OIG-Recom-    Capital
                         mended Actions to Improve Human      Management
                         Capital Management, Training, and
                         Employee Development Practices
09/14/2011   TM-11-01    Progress and Opportunities in        n/a                         n/a              n/a                 n/a
                         Amtrak’s Implementation of the
                         Passenger Rail Investment and
                         Improvement Act of 2008
09/21/2011   009-2011    Acela Car Purchase Draft             Acquisition &                0                0                     0
                         Request for Proposal: Additional     Procurement
                         Requirements and Pre-Award Audit
                         Clause Needed to Help Assess
                         Proposed Cost and Price
09/29/2011   109-2010    Americans with Disabilities Act:     Train                        0                0        175,000,000
                         Leadership Needed to Help Ensure     Operations
                         That Stations Served by Amtrak Are   & Business
                         Compliant                            Management
Total                                                                                 $    0       $519,932      $343,400,000

                                                                                                                 (continued)



                         Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011       43
Appendix




     APPENDIX 3      (continued)


     OFFICE OF INSPECTOR GENERAL
     DETAILED LISTING OF ALL ISSUED AUDIT/EVALUATION REPORTS AND TESTIMONY

                                             Reporting Period: 4/1/2011–9/30/2011


      Audits/Evaluations
      In process at 4/1/2011:                                                      26
      Postponed or canceled:                                                        0
      Started:                                                                      6
      Issued:                                                                       8
      In process at 9/30/2011:                                                     24




44   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                                                                 Appendix




Appendix 4

Office of Inspector General
EVALUATION REPORTS ISSUED WITH FINAL MANAGEMENT ACTION PENDING CONTAINING ESTIMATED
YEARLY COST SAVINGSa (FUNDS TO BE PUT TO BETTER USE)

                                              Reporting Period: 4/1/2011–9/30/2011

 Recommendations made or carried forward in this reporting period

 Source of savingsb                                   Report Number/Date                Estimated Annual          Estimated Annual
                                                                                                 Savings            Savings Already
                                                                                                                          Achieved
 Reliability-Centered Maintenance                     cE-05-04/                              $100 million+              $30 million	
                                                      September 6, 2005
 Increased productivity and utilization               dE-06-02/                                 28 million+                4 million	
 of rolling stock fleet                               April 6, 2006
 Consolidation of mechanical                          E-06-03/April 24, 2006                    25 million+                4 million+
 maintenance operations into “centers
 of excellence” at fewer locations
 Improved efficiency of human                         E-09-03/May 15, 2009                      23 million+
 resource processes through leveraging
 of new technology
 Achievement of “State of Good Repair”                E-09-05/                                  50 million+
 of Amtrak infrastructure and adoption                September 29, 2009
 of European railroads’ infrastructure
 best practices
 Improved efficiency of training                      E-09-06/October 26, 2009                    8 million	
 Total                                                                                       $234 million+              $38 million+

a 	Estimated savings based on benchmarking to other organizations
b 	Abbreviated description; see report for full explanation
c 	Follow-up evaluation underway
d 	See also E-11-02, March 31, 2011: Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-Level Plan That Needs Deeper
 Analysis and Planning Integration.




                          Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011        45
Appendix




     Appendix 5

     Office of Inspector General
     Review of Legislation and Regulations

                                             Reporting Period: 4/1/2011–9/30/2011

     Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall review
     existing and proposed legislation and regulations relating to programs and operations of such establishment and to
     make recommendations in the semiannual reports…concerning the impact of such legislation or regulations on the
     economy and efficiency in the administration of such programs and operations administered or financed by such
     establishment or the prevention and detection of fraud and abuse in such programs and operations.

     During this reporting period, at the request of the Council of the Inspectors General on Integrity and Efficiency,
     we reviewed proposed regulations to implement the Improper Payments Elimination and Recovery Act.




46   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                                                   Appendix




Appendix 6

Office of Inspector General
peer review results

                                       Reporting Period: 4/1/2011–9/30/2011

The Dodd–Frank Wall Street Reform and Consumer Protection Act (P. L. 111-203, July 21, 2010)
requires each Office of Inspector General (OIG) to include in its Semiannual Report to Congress the
results of any peer review conducted by another OIG during the reporting period, or—if no peer review
was conducted—a statement identifying the date of the last peer review. Also required is a list of all peer reviews
conducted by the OIG of another OIG, and the status of any recommendations made to or by the OIG.

A review of the Amtrak Office of Inspector General’s Office of Audits was conducted by the Inspector General of the
Legal Services Corporation for the year ended September 30, 2008. All recommendations have been implemented.

We have not performed a peer review of any other OIG organization.




                      Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   47
Glossary




     Glossary of Audit Terms and Abbreviations
     The terms the OIG uses in reporting audit statistics are defined below:
     Questioned Cost – Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
     alleged violation of Amtrak’s corporate policy or procedure.
     Unsupported Cost – Cost that is not supported by adequate documentation at the time of the audit.
     Funds to Be Put to Better Use – Funds identified in an audit that could be used more effectively by taking greater
     efficiency measures.
     Management Decision – Management’s evaluation of the OIG audit finding and its final decision concerning
     agreement or non-agreement with the OIG recommendation.

     Abbreviations/acronyms used in the text are defined below:

           ADA       Americans with Disabilities Act                      NAPA       National Academy of Public
           APD       Amtrak Police Department                                        Administration
          ARRA       American Recovery and Reinvestment                    NEC       Northeast Corridor
                     Act of 2009                                              OI     Office of Investigations
           CEO       chief executive officer                                OIG      Office of Inspector General
           CFO       chief financial officer                               OMB       Office of Management and Budget
          CIGIE      Council of the Inspectors General on                  OTP       on-time performance
                     Integrity and Efficiency                               P.L.     Public Law
          D.C.       District of Columbia                                 PRIIA      Passenger Rail Investment and
          EAP        Employee Assistance Program                                     Improvement Act of 2008
          ESC        Executive Steering Committee                         R&R        repair and return
       FBPTBU        funds to be put to better use                        RCM        reliability-centered maintenance
          FRA        Federal Railroad Administration                      RFP        request for proposals
           FY        fiscal year                                          RPU        Revenue Protection Unit
        GAGAS        generally accepted government auditing               SAM        strategic asset management
                     standard                                            SIGIR       Special Inspector General for Iraq
           GAO       Government Accountability Office                                Reconstruction
           GSA       General Services Administration                     U.S.C.      United States Code
            IG       Inspector General                                   USPS        United States Postal Service
           LSA       lead service attendant




48   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
                                                                                       Reporting Requirements




Reporting Requirements Index

INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT



Topic/Section   Reporting Requirement                                                                         Page
4(a)(2)         Review of Legislation and Regulations                                                            45

5(a)(1)         Significant Problems, Abuses, and Deficiencies                               19-29, 31-33, 35-37

                Recommendations for Corrective Action to Significant
5(a)(2)                                                                                      19-29, 31-33, 35-37
                Problems
                Previous Reports’ Recommendations for Which Corrective
5(a)(3)                                                                                                         n/a
                Action Has Not Been Completed

5(a)(4)         Matters Referred to Prosecutive Authorities                                                     n/a

5(a)(5)         Information Assistance Refused or Not Provided                                                  n/a

5(a)(6)         Audit Reports Issued in This Reporting Period                                                    42

5(a)(7)         Summary of Significant Reports                                                                   42

5(a)(8)         Audit Reports with Questioned Costs                                                              40

                Audit Reports with Recommendations That Funds Be Put
5(a)(9)                                                                                                          41
                To Better Use
                Previous Audit Reports Issued with No Management
5(a)(10)                                                                                                        n/a
                Decision Made by End of This Reporting Period

5(a)(11)        Significant Revised Management Decisions                                                        n/a

                Significant Management Decisions with Which the OIG is
5(a)(12)                                                                                                        n/a
                in Disagreement
                Federal Financial Management Improvement Act-related
5(a)(13)                                                                                                        n/a
                Reporting

5(a)(14-16)     Peer Review Results                                                                              47




                Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011   49
                    Stop Waste, Fraud, Abuse,
                    and Mismanagement!
                    Who pays? You pay.
                    Act like it’s your money…because it is.
                    Tell Us About It
                    Are you aware of waste, fraud, abuse, or mismanagement at Amtrak? Amtrak’s
                    Office of Inspector General (OIG) has a toll-free Hotline number that you can call,
                    even if you’re not certain that what you suspect falls into one of these categories.
                    If you’d prefer to write to us, that’s fine, too.

                    The OIG will keep your identity confidential. You may remain anonymous if you
                    so choose. You are protected by law from reprisal by your employer.



                    Call the Amtrak OIG Hotline
                    Nationwide: (800) 468-5469


                    Write to us
                    Office of Inspector General
                    P.O. Box 76654
                    Washington, D.C. 20013-6654

                    Visit us online
                    www.amtrakoig.gov




50   Amtrak Office of Inspector General I Semiannual Report to Congress I April 1, 2011– September 30, 2011
www.amtrakoig.gov
         National Railroad Passenger Corporation
                 Office of Inspector General
10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285
                     www.amtrakoig.gov

    Amtrak is a registered service mark of the National Railroad Passenger Corporation
